                             NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

Date:         March 31, 2011

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

              Karen Tiplady, Director
              Division of Grants and Agreements

From:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

Subject:      Audit Report No. OIG-11-012
              Boston University


Attached is the final audit report, prepared by McBride, Lock & Associates, an independent
public accounting firm, on the audit of NSF Award Number ATM-0120950 awarded to the
Trustees of Boston University (Boston University). The audit covers NSF-funded costs claimed
from August 1, 2002 to December 31, 2009, totaling approximately $27.8 million in costs
claimed and $8.7 million in claimed cost share for the award.

Boston University was selected for audit because of the high dollar value and number of NSF
awards, the collaborative nature of many of those awards, and deficiencies reported in a 2005
NSF program office site visit report. The award was selected for audit because of the
complexities associated with the coordination and monitoring of 13 participants, coupled with
the deficiencies reported in a 2005 NSF program office site visit report in the areas of subaward
monitoring and time and effort reporting.The award provides for the creation of the Center for
Integrated Space Weather Modeling (CISM) at Boston University. Boston University, as the
lead institution, coordinates and manages the efforts of multiple partners, including 13 other
academic institutions and industries.

Except for $412,400 in questioned subaward costs and $174,397 in questioned cost sharing, the
auditors determined that the costs claimed by TBU for the NSF award appear fairly stated and
are allowable, allocable, and reasonable. The auditors also noted that, of the two findings made
in NSF’s 2005 program site visit, one finding identified that one of Boston University’s
subawardees was submitting claims for gifts which cost type is unallowable under federal
regulations. The auditors found that all three of Boston University’s subawardees tested were
submitting claims for unallowable and unsupported costs. The lack of improvement in the area
of subawardee monitoring is significant because subaward costs are reported by 13 subawardees
totaling $19.9 million or 72% of the total $27.8 million in costs claimed under this NSF award.

The auditors also noted three compliance and internal control deficiencies in TBU’s financial
management practice that contributed to these questioned costs and cost share that if not
corrected, could impact current and future NSF awards. Specifically:

   •   The TBU did not have policies and procedures to ensure adequate fiscal monitoring of
       subaward costs or subawardee cost share charged to the CISM award. Specifically, the
       University did not have a formal plan for monitoring subawardees, such as performing
       effective annual review of subawardee’s A-133 audit reports; obtaining supporting
       documentation; and performing desk reviews and site visits. Also, TBU did not perform
       an analysis such as a risk assessment of its subawardees to determine which monitoring
       procedures should be performed for each subawardee. The University relied on the
       controls and self-assessments made by the subawardees to ensure subawardee costs are
       reasonable, allowable, and allocable to the NSF award and are in compliance with award
       terms. The auditors performed on-site audit procedures at three TBU subawardees that
       identified noncompliance with NSF requirements and questioned costs at each location.

       For example, the auditors found that the subawardees improperly claimed bond and
       associated interest payments charged as depreciation; unapproved payroll charges;
       unapproved foreign travel; excessive and unnecessary side trips to resort areas, including
       charges for hotels, rental cars, and per diem; duplicate payments; unallowable
       management fees; and indirect costs for telephone, postage and shipping charges claimed
       as direct costs on the NSF award. Additionally, costs not required to accomplish award
       objectives were charged to the award, such as conference give-aways in the form of 700
       calculators, 1,000 mouse pads and 300 tote bags emblazoned with the CISM logo,
       translation of UCAR’s Windows to the Universe web site to Spanish and a Visa
       application fee for entry into the United States. As a result, the auditors questioned
       $412,400 of costs and $174,397 of cost share claimed. Considering that the CISM award
       includes 13 participating entities with subaward costs totaling $19.9 million or 72% of the
       total $27.8 million in costs claimed under the NSF award, effective monitoring of
       subaward expenditures is a critical internal control to ensure overall compliance with
       NSF and Office of Management and Budget requirements. Required routine subaward
       monitoring could prevent or identify any additional unallowable claimed subaward costs.

   •   The University does not have adequate internal controls to ensure that cost share is
       properly identified, recorded, reported, and monitored. Deficiencies were identified in the
       procedures for identifying and recording cost share in the University’s accounting system;
       monitoring and reporting subawardee cost share; and reporting accurate cost share
       amounts to the NSF. The auditors determined that cost share expenses are not recorded in
       separate specifically identifiable accounts in the accounting system, cost share as certified
       by TBU for the subawardees was not in agreement with cost share reported on the cost
       share reports from the subawardees, and, costs reported as cost share items included



                                                2
       unallowable costs for $174,397 from two subawardees. This condition occurred because
       policies and procedures regarding cost share were minimal and were not effective to
       ensure these costs were properly accounted for, recorded, and reported. As a result, the
       University’s internal control over cost sharing does not provide assurance that the cost
       sharing expenditures reported and claimed by TBU or its subawardees are accurate,
       allowable, allocable, and reasonable or that TBU’s program objectives are being met as
       intended.

   •   The University’s system of internal controls over the personnel/payroll function is not
       adequate to prevent the continuation of payroll checks or deposits after an employee has
       terminated their employment with the University. Also, internal controls at CISM are not
       adequate to ensure that sick leave is accurately recorded and reported for CISM
       employees. Specifically, there is no process or requirement in place requiring
       notification of a party outside of the department where they work, such as the
       University’s Office of Human Resources, when a non-student employee is terminated.
       Further, while the University’s personnel leave policy requires all departments to
       maintain records of employees’ accumulated sick leave balances, such records are not
       maintained for CISM employees. These conditions occurred because of a lack of
       emphasis on the importance of internal controls over unauthorized compensation for
       terminated personnel, and, improper sick leave practices and reporting for CISM
       employees. The lack of effective internal controls over the payroll/personnel functions
       and employee leave practices place NSF funds at risk and may result in costs claimed that
       are not reasonable, allowable, and necessary for the NSF award.

These noncompliance and internal control weaknesses could have a significant impact on the
University’s ability to record, process, summarize and report financial data, and effectively and
efficiently administer its NSF funds in a manner that is consistent with Federal and NSF
requirements. If Boston University fails to address these compliance and internal control
weaknesses, improper costs and unallowable cost share may continue to be charged on this
award, the other existing $111.7 million of NSF awards, and on future NSF awards.

To address these compliance and internal control deficiencies, the auditors recommend that the
Director of NSF’s Division of Institution and Award Support (DIAS) address and resolve the
following recommendations made to Boston University. It is recommended that Boston
University (1) establish comprehensive risk-based subawardee evaluation and monitoring
procedures for Boston University’s NSF-sponsored programs and adjust any erroneous
subawardee management fee claims made on the award since its inception; (2) require
designated University personnel to review cost share reports to ensure that sufficient detail is
provided to allow a meaningful evaluation of the reasonableness of reported amounts, reconcile
cost share recorded in the general ledger to cost share reported by Boston University and the
subawardees, and, provide written procedures and training to the designated University
personnel regarding the correct process for properly evaluating, recording, and reporting all
committed cost share associated with sponsored awards; and, (3) develop written policies and
procedures that address accounting for employee terminations and employee sick leave, and
implement methods to ensure adherence to the approved policies and procedures to ensure
compliance with Federal requirements.



                                               3
Boston University, in its response , generally concurred with some of the recommendations but
did not agree with the questioned costs. Boston University indicated it was taking corrective
actions to develop and implement subaward monitoring policies and procedures. They also
indicated that they were taking corrective actions to strengthen policies and procedures for the
managing, recording and reporting of cost share and employee sick leave. However, they did not
agree that existing policies and procedures for employee termination is inadequate. Boston
University’s response is included in its entirety in Appendix A.

Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the Deputy Assistant Director, Directorate for
Geosciences within the Office of the Assistant Director; and, the Division and Program Directors
of Atmospheric & Geospace Sciences (GEO/AGS). The responsibility for audit resolution rests
with the Division of Institution and Award Support, Cost Analysis and Audit Resolution Branch
(CAAR). Accordingly, we ask that no action be taken concerning the report’s findings without
first consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed McBride, Lock & Associates approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with McBride, Lock & Associates and NSF officials, as
          necessary, to discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by McBride, Lock & Associates to ensure compliance
          with Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

McBride, Lock & Associates is responsible for the attached auditor’s report on Boston University
and the conclusions expressed in the report. We do not express any opinion on the Schedule of
Award Costs, internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.

Attachment

cc:       Margaret Cavanaugh, Deputy Assistant Director, GEO/OAD
          Michael C. Morgan, Division Director, GEO/AGS


                                                4
Robert M. Robinson, Program Director, GEO/AGS




                                   5
         The Trustees of Boston University-
                   Boston, MA
                  One Silber Way
                 Boston, MA 02215

          Independent Auditors' Reports on
          National Science Foundation
          Award Number ATM-0120950
         Center for Integrated Space Weather
                  Modeling (CISM)



For the Period from August 1, 2002 to December 31, 2009




                                                McBride, Lock & Associates
                                                          1111 Main Street
                                                                  Suite 900
                                                    Kansas City, MO 64105
                                      EXECUTIVE SUMMARY

The National Science Foundation (NSF), Office of Inspector General (OIG), engaged McBride, Lock &
Associates to perform an audit on $27,795,384 in costs claimed and $8,713,453 in cost sharing claimed
as reported on the December 31, 2009 Federal Financial Report (FFR) and cost sharing reports
submitted to NSF by the Trustees of Boston University (TBU or University) for NSF award number
ATM-0120950.

TBU is a major grant recipient with 228 active awards totaling over $139.5 million from NSF as
reported in the TBU’s 2009 Annual Report. The award selected for audit is a cooperative agreement
made to TBU to establish a Center for Integrated Space Weather Modeling (CISM). The goal of the
CISM, is to develop computer models that can predict space weather from the surface of the sun to the
Earth’s surface and ultimately to better protect the US technological systems that are affected by
conditions in the space environment. In this effort, TBU as the lead institution, coordinates and manages
the efforts of multiple partners, including other academic institutions and industries. The award was
selected for audit because of the complexities associated with the coordination and monitoring of 13
participants, coupled with the deficiencies reported in a 2005 NSF program office site visit report in the
areas of subaward monitoring and time and effort reporting.

The objectives of this engagement was to determine whether the costs and cost share claimed by TBU
and its subawardees for this NSF award appear fairly stated in the TBU’s Schedule of Award Costs and
to identify weaknesses in TBU’s internal control over financial reporting that could have a direct and
material effect on TBU’s ability to properly administer, account for, and monitor its NSF awards. In
addition, we were to determine whether TBU adequately monitors its subawardees and ensures that
recommendations made in NSF’s 2005 program site visit have been satisfactorily resolved.

Except for $412,400 in questioned subaward costs and $174,397 in questioned cost sharing, we
determined that the costs claimed by TBU for the NSF award appear fairly stated and are allowable,
allocable, and reasonable. Specifically, we questioned $412,400 claimed by three of TBU’s subawardees
because of charges claimed for unallowable, unsupported, unallocable and unreasonable costs, which are
discussed further below. We also questioned cost share for $174,397 because one subawardee claimed
conference discounts as cost share for certain expenses which do not assist in achieving the goals of the
NSF award, and another subawardee claimed consultant costs in excess of allowable rates and without
adequate documentation to support expenses claimed. We noted that, of the two findings made in NSF’s
2005 program site visit, one finding identified that one of TBU’s subawardees was submitting claims for
gifts which cost type is unallowable under federal regulations. Our audit found that all three of TBU’s
subawardees tested were submitting claims for unallowable and unsupported costs. The lack of
improvement in the area of subawardee monitoring is significant because subaward costs are reported by
13 subawardees totaling $19.9 million or 72% of the total $27.8 million in costs claimed under this NSF
award.

We also noted three compliance and internal control deficiencies in TBU’s financial management
practice that contributed to these questioned costs and cost share that if not corrected, could impact
current and future NSF awards. Specifically:

   •   The TBU did not have policies and procedures to ensure adequate fiscal monitoring of subaward
       costs or subawardee cost share charged to the CISM award. Specifically, the University did not
       have a formal plan for monitoring subawardees, such as performing effective annual review of
       subawardee’s A-133 audit reports; obtaining supporting documentation; and performing desk

                                                    3
    reviews and site visits. Also, TBU did not perform an analysis such as a risk assessment of its
    subawardees to determine which monitoring procedures should be performed for each
    subawardee. The University relied on the controls and self-assessments made by the
    subawardees to ensure subawardee costs are reasonable, allowable, and allocable to the NSF
    award and are in compliance with award terms. We performed on-site audit procedures at three
    TBU subawardees that identified noncompliance with NSF requirements and questioned costs at
    each location.

    For example, we found the subawardees improperly claimed bond and associated interest
    payments charged as depreciation; unapproved payroll charges; unapproved foreign travel;
    excessive and unnecessary side trips to resort areas, including charges for hotels, rental cars, and
    per diem; duplicate payments; unallowable management fees; and indirect costs for telephone,
    postage and shipping charges claimed as direct costs on the NSF award. Additionally, costs not
    required to accomplish award objectives were charged to the award, such as conference give-
    aways in the form of 700 calculators, 1,000 mouse pads and 300 tote bags emblazoned with the
    CISM logo, translation of UCAR’s Windows to the Universe web site to Spanish and a Visa
    application fee for entry into the United States. As a result, we questioned $412,400 of costs and
    $174,397 of cost share claimed. Considering that the CISM award includes 13 participating
    entities with subaward costs totaling $19.9 million or 72% of the total $27.8 million in costs
    claimed under the NSF award, effective monitoring of subaward expenditures is a critical
    internal control to ensure overall compliance with NSF and Office of Management and Budget
    requirements. Required routine subaward monitoring could prevent or identify any additional
    unallowable claimed subaward costs.

•   The University does not have adequate internal controls to ensure that cost share is properly
    identified, recorded, reported, and monitored. Deficiencies were identified in the procedures for
    identifying and recording cost share in the University’s accounting system; monitoring and
    reporting subawardee cost share; and reporting accurate cost share amounts to the NSF. We
    determined that cost share expenses are not recorded in separate specifically identifiable accounts
    in the accounting system, cost share as certified by TBU for the subawardees was not in
    agreement with cost share reported on the cost share reports from the subawardees, and, costs
    reported as cost share items included unallowable costs for $174,397 from two subawardees.
    This condition occurred because policies and procedures regarding cost share were minimal and
    were not effective to ensure these costs were properly accounted for, recorded, and reported. As
    a result, the University’s internal control over cost sharing does not provide assurance that the
    cost sharing expenditures reported and claimed by TBU or its subawardees are accurate,
    allowable, allocable, and reasonable or that TBU’s program objectives are being met as intended.

•   The University’s system of internal controls over the personnel/payroll function is not adequate
    to prevent the continuation of payroll checks or deposits after an employee has terminated their
    employment with the University. Also, internal controls at CISM are not adequate to ensure that
    sick leave is accurately recorded and reported for CISM employees. Specifically, there is no
    process or requirement in place requiring notification of a party outside of the department where
    they work, such as the University’s Office of Human Resources, when a non-student employee is
    terminated. Further, while the University’s personnel leave policy requires all departments to
    maintain records of employees’ accumulated sick leave balances, such records are not
    maintained for CISM employees. These conditions occurred because of a lack of emphasis on
    the importance of internal controls over unauthorized compensation for terminated personnel,
    and, improper sick leave practices and reporting for CISM employees. The lack of effective

                                                 4
       internal controls over the payroll/personnel functions and employee leave practices place NSF
       funds at risk and may result in costs claimed that are not reasonable, allowable, and necessary for
       the NSF award.


These noncompliance and internal control weaknesses could have a significant impact on the
University’s ability to record, process, summarize and report financial data, and effectively and
efficiently administer its NSF funds in a manner that is consistent with Federal and NSF requirements.
If TBU fails to address these compliance and internal control weaknesses, improper costs and
unallowable cost share may continue to be charged on this award, the other existing $111.7 million of
NSF awards, and on future NSF awards.

To address these compliance and internal control deficiencies, we recommended that NSF’s Director of
the Division of Institution and Award Support (DIAS) address and resolve the following
recommendations made to TBU: (1) establish comprehensive risk-based subawardee evaluation and
monitoring procedures for TBU’s NSF-sponsored programs and adjust any erroneous subawardee
management fee claims made on the award since its inception; (2) require designated University
personnel to review cost share reports to ensure that sufficient detail is provided to allow a meaningful
evaluation of the reasonableness of reported amounts, reconcile cost share recorded in the general ledger
to cost share reported by TBU and the subawardees, and, provide written procedures and training to the
designated University personnel regarding the correct process for properly evaluating, recording, and
reporting all committed cost share associated with sponsored awards; and, (3) develop written policies
and procedures that address accounting for employee terminations and employee sick leave, and
implement methods to ensure adherence to the approved policies and procedures to ensure compliance
with Federal requirements.


THE TRUSTEES OF BOSTON UNIVERSITY RESPONSE

Boston University takes its responsibility for stewardship over federal funding very seriously. As such,
we have devoted significant resources since this audit commenced more than a year ago to ensure that
the audit of NSF Award ATM-0120950 accurately represents our internal control environment. The
unreasonably short time period between our receipt of the draft report on March 3, 2011 and the
arbitrary deadline of March 23, 2011 provided to TBU to provide a draft response significantly limits
our ability to validate the accuracy of the questioned costs referenced throughout this report as well as
provide an adequate response. While we understand that audit issues are typically resolved during Audit
Resolution, as stated in our further responses, we believe some of these findings are without merit and
are concerned that erroneous report findings could unfairly harm the University’s reputation. As
referenced in this report, all of the questioned costs are subawardee expenses which will require
communication and thorough review of documentation with the subwardees to validate the accuracy of
the findings. To ensure the NSF OIG and TBU obtain the highest quality results and the objectives of
the audit are achieved, we believe additional time of up to a month should be provided to develop a fully
considered and accurate management response. Subject to its request for this additional time, TBU has
provided responses to the best of its ability to each of the three findings contained herein.




                                                    5
Auditors’ Comments

Boston University generally concurred with most of the internal control recommendations but did not
agree with all the questioned costs. Each of the three auditors’ internal control findings was identified
and discussed with officials of Boston University during the initial internal control assessment phase of
this audit which occurred in April of 2010. In fact, these internal control weaknesses triggered the need
to expand audit testwork and conduct site visits at three subawardees, which identified the questioned
costs presented in this report. The internal control findings were again discussed and summarized in
writing at the conclusion of substantive audit fieldwork at BU in early September, 2010. It is not
unreasonable to expect Boston University to respond to findings of deficient internal controls which
have been known to them for many months.

Boston University’s response to each finding is included in the text of the report following the auditors’
recommendations. Our comments on Boston University’s responses follow each of their responses.
Boston University’s response is also presented in its entirety in Appendix B of this report.

The findings in this report should not be closed until NSF has determined that all the recommendations
have been adequately addressed and the proposed corrective actions have been implemented.

For a complete discussion of these findings, refer to the Report on Internal Control Over Financial
Reporting and on Compliance and Other Matters Based on an Audit of Financial Schedules Performed in
Accordance with Government Auditing Standards.




                                                    6
                                          Table of Contents
                                                                                  Page
Executive Summary:
Table of Contents
                                                                                   7

Introduction:
                                                                                   9
Background
Audit Objectives, Scope and Methodology
                                                                                   10
Auditors’ Reports, Findings and Recommendations:

Independent Auditors’ Report on Financial Schedules                                12
Report on Internal Control over Financial Reporting and on Compliance
    and Other Matters Based on an Audit of Financial Schedules Performed           14
    in Accordance with Government Auditing Standards

Financial Schedules and Supplemental Information:


Schedule A Schedule of Award Costs                                                 38
Schedule B Schedule of Questioned Costs                                            40
Schedule C Schedule of Cost Sharing                                                41
Schedule D Summary Schedules of Awards Audited and Audit Results                   42
Notes to the Financial Schedules                                                   43

Appendix A – Status of Prior Review Findings
                                                                                   45
Appendix B – Awardee’s Comments to Report
                                                                                   52


                                          Acronyms

                  CISM          Center for Integrated Space Weather Modeling
                  NCAR          National Center for Atmospheric Research
                  NSF           National Science Foundation
                  OIG           Office of Inspector General
                  OMB           Office of Management and Budget
                  OSP           Office of Sponsored Programs
                  PAFO          Post Award Financial Operations
                  PI            Principal Investigator
                  RA            Research Accountant
                  STC           Science and Technology Center
                  TBU           Trustees of Boston University
                  UCAR          University Corporation for Atmospheric Research
                  CU-Boulder    University of Colorado at Boulder


                                                 7
INTRODUCTION
BACKGROUND


We were engaged to audit the funds awarded by the National Science Foundation to the Trustees of
Boston University (TBU or University) under award number ATM-0120950, for the period of August
1, 2002 to December 31, 2009. The University, as a federal awardee, is required to follow the cost
principles specified in 2 CFR Part 220 (OMB Circular A-21), Cost Principles for Educational
Institutions and the federal administrative requirements contained in 2 CFR Part 215 (OMB Circular
A-110), Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations.

The University is a private research university and land-grant institution with administrative offices located
in Boston, Massachusetts and conducts education, research, public service and related activities at its
Charles River Campus and at the Medical Center Campus. Under the governance of a Board of Trustees,
TBU has provided teaching, research and service to Massachusetts and the nation since 1869. TBU serves
approximately 33,000 students on its campuses.

As reported in the TBU’s 2009 annual report, the University had 228 active NSF awards totaling over
$139.5 million. The TBU’s NSF award portfolio collaborations include groups of universities, non-profit
organizations, and/or contractors working together on a common initiative with one or more of the
organizations functioning as the coordinator of all financial administration. Collaborative awards often have
high inherent audit risks because of the challenges the awardees face to adequately monitor and account for
NSF award funds. Many of the collaborating parties have various administrative and financial systems in
place which require adequate internal control, authorization, communication, and award management
processes in operation to ensure that federal funds are spent in accordance with NSF and Federal
requirements and in support of the NSF programs.

The TBU was selected for audit because of the high dollar value and number of NSF awards, the
collaborative nature of many of those awards, and deficiencies reported in a 2005 NSF program office site
visit report. Specifically, that site visit review identified weaknesses in subawardee monitoring and untimely
effort reporting,

TBU’s NSF Award No. ATM-0120950, which was selected for audit, was awarded to TBU for the period
August 1, 2002 to July 31, 2012 in the amount of $32,384,375 with a cost share requirement of $7,908,358.
The award provides for the creation of the Center for Integrated Space Weather Modeling (CISM) at TBU.
The purpose of the Center is to develop computer models that can predict space weather from the surface of
the sun to the Earth’s surface and ultimately to better protect the US technological systems that are affected
by conditions in the space environment. TBU, as the lead institution, coordinates and manages the efforts of
multiple partners, including 13 other academic institutions and industries. Cumulative disbursements for
Award No. ATM-0120950, reported to NSF through December 31, 2009, were $27,795,384 of which
approximately $20 million were subaward costs. Cost share claimed totaled $8,713,453.




                                                      9
AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY


At the request of the NSF Office of Inspector General (OIG), McBride, Lock & Associates conducted an
audit of NSF Award Number ATM-0120950 granted to the University.

The objectives of our audit were to:

   1. Determine whether TBU’s system of internal control over administering its NSF awards is adequate to
      account for and ensure compliance with OMB Circular and NSF award requirements.

   2. Identify and report instances of noncompliance with laws, regulations, and the provisions of the
      award agreement(s) and weaknesses in the awardee's internal controls over compliance that could have
      a direct and material effect on the Schedules of Award Costs and the awardee's ability to properly
      administer, account for, and manage its NSF awards.

   3. Determine whether the University’s Schedule of Award Costs presents fairly, in all material respects,
      the costs claimed on the Federal Financial Reports (FFR) in conformity with NSF-OIG's Audit Guide
      and the terms and conditions of the NSF award.

   4. Determine and report on whether TBU adequately monitors its subawards and if recommendations
      made in NSF’s 2005 site visit report have been satisfactorily resolved.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in the Government Auditing Standards (2007
revision) issued by the Comptroller General of the United States, and the guidance provided in the National
Science Foundation OIG Audit Guide, August 2007, as applicable. Those standards and the National Science
Foundation OIG Audit Guide require that we plan and perform the audit to obtain reasonable assurance
about whether the amounts claimed to the National Science Foundation as presented in the Schedule of
Award Costs (Schedule A-1), are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the Schedule of Award Costs. An audit also
includes assessing the accounting principles used and significant estimates made by the Trustees of Boston
University, as well as evaluating the overall financial schedule presentation. We believe that our audit
provides a reasonable basis for our opinion.




                                                    10
AUDITORS’ REPORTS, FINDINGS
  AND RECOMMENDATIONS
              INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES

National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

We have audited the costs claimed by the Trustees of Boston University to the National Science
Foundation (NSF) on the Federal Financial Reports (FFRs) for the NSF award listed below. In
addition, we audited the amount of cost sharing claimed on the award. The FFRs, as presented in the
Schedule of Award Costs (Schedule A) are the responsibility of the Trustees of Boston University’s
management. Our responsibility is to express an opinion on the Schedule of Award Costs (Schedule A)
based on our audit.

       Award Number: ATM-0120950
       Award Period: August 1, 2002 to July 31, 2012
       Audit Period: August 1, 2002 to December 31, 2009

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards (2007 revision) issued by the Comptroller General of the United States, and the guidance
provided in the National Science Foundation OIG Audit Guide (August 2007), as applicable. Those
standards and the National Science Foundation OIG Audit Guide require that we plan and perform
the audit to obtain reasonable assurance about whether the amounts claimed to the National Science
Foundation as presented in the Schedule of Award Costs (Schedule A) are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Award Costs (Schedule A). An audit also includes assessing the
accounting principles used and the significant estimates made by the Trustees of Boston University’s
management, as well as evaluating the overall financial schedule presentation. We believe that our audit
provides a reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains the $412,400 of total claimed NSF-funded
costs that we questioned for allowability under the NSF award agreement. These questioned costs
represent unallowable, unsupported, unallocable and unreasonable payments to TBU’s subawardees.
The Schedule of Cost Sharing (Schedule C) explains the $174,397 of questioned cost sharing. The
questioned cost sharing represents vendor discounts claimed as cost sharing by TBU’s subawardees.
Questioned costs are (1) costs for which there is documentation that the recorded costs were expended in
violation of the laws, regulations or specific award conditions, (2) costs that require additional support
by the awardee or (3) costs that require interpretation of allowability by NSF’s Division of Institution

                                                   12
and Award Support. The final determination as to whether such costs are allowable will be made by
NSF. The ultimate outcome of this determination cannot presently be determined. Accordingly, no
adjustment has been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for the $412,400 of questioned NSF-funded costs and $174,397 of questioned
cost share, the Schedule of Award Costs (Schedule A) referred to above presents fairly, in all material
respects, the costs claimed on the Federal Financial Reports — Federal Share of Net Disbursements
and cost sharing claimed, for the period of August 1, 2002 through December 31, 2009, in conformity
with the provisions of the National Science Foundation OIG Audit Guide, NSF Grant Policy
Manual, terms and conditions of the NSF award and on the basis of accounting described in the
Notes to the Financial Schedules, which is a comprehensive basis of accounting other than
generally accepted accounting principles. This schedule is not intended to be a complete presentation of
financial position of TBU in conformity with accounting principles generally accepted in the United
States of America.

In accordance with Government Auditing Standards and the provisions of the National Science
Foundation OIG Audit Guide, we have also issued our report dated October 15, 2010, on our
consideration of TBU’s internal control over financial reporting and our tests of TBU’s compliance with
certain provisions of laws, regulations, and NSF award terms and conditions and other matters. The
purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on internal control
over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results of
our audit.

Our audit was conducted for the purpose of forming an opinion on the Schedule of Award Costs
(Schedule A). The accompanying schedules B, C, and D are presented for purposes of additional
analysis, as required by the National Science Foundation OIG Audit Guide. Such information has been
subjected to the auditing procedures applied in the audit of the Schedule of Award Costs and, in our
opinion, is fairly stated, in all material respects, in relation to the Schedule of Award Costs.

This report is intended solely for the information and use of the Trustees of Boston University’s
management, the National Science Foundation, the University’s cognizant federal audit agency, the
Office of Management and Budget, and the Congress of the United States and is not intended to be,
and should not be used by anyone other than these specified parties.



McBride, Lock & Associates
October 15, 2010




                                                    13
                            REPORT ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE AND
       OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES
    PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

We have audited the costs claimed as presented in the Schedule of Award Costs (Schedule A),
which summarizes the financial reports submitted by the Trustees of Boston University to the
National Science Foundation (NSF), and claimed cost sharing, for the award and period listed
below and have issued our report thereon dated October 15, 2010.

       Award Number: ATM-0120950
       Award Period: August 1, 2002 to July 31, 2012
       Audit Period: August 1, 2002 to December 31, 2009

We conducted our audit of the Schedule of Award Costs as presented in Schedule A in accordance
with auditing standards generally accepted in the United States of America, the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States (2007 revision); and the guidance provided in the National Science Foundation OIG Audit
Guide (August 2007), as applicable.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the period
August 1, 2002 to December 31, 2009, we considered the Trustees of Boston University’s internal
control over financial reporting as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial schedule, but not for the purpose of expressing an opinion on the
effectiveness of the Trustees of Boston University’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Trustees of Boston University’s
internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

                                                    14
Our consideration of internal control over financial reporting was for the limited purpose described in
the first paragraph of this section and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies or material weaknesses. We
did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above. However, we identified certain deficiencies in internal control
over financial reporting, as discussed in Finding Nos. 1, 2 and 3 in the Schedule of Findings and
Recommendations below, that we consider to be significant deficiencies in internal control over
financial reporting. A significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit attention by those
charged with governance.


COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether the Trustees of Boston University’s
financial schedules are free of material misstatement, we performed tests of the University's compliance
with certain provisions of applicable laws, regulations, and NSF award terms and conditions,
noncompliance with which could have a direct and material effect on the determination of financial
schedule amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests
of compliance disclosed certain instances of noncompliance that are required to be reported
under Government Auditing Standards and the National Science Foundation OIG Audit Guide and
are described as Finding Nos. 1, 2 and 3 in the Schedule of Findings and Recommendations below.

The Trustees of Boston University responses to the findings identified in our audit are described
after each recommendation in the accompanying Schedule of Findings and Responses presented
below and are included in their entirety in Appendix B. We did not audit the Trustees of Boston
University’s response and, accordingly, we express no opinion on it.


SCHEDULE OF FINDINGS AND RECOMMENDATIONS

Finding No. 1: Lack of Adequate Fiscal Monitoring of Subawardees

During the period of award ATM-0120950 and at the time of our audit, the TBU did not have policies
and procedures to ensure adequate fiscal monitoring of subaward costs or subawardee cost share charged
to the CISM award. In response to auditors’ observations regarding weaknesses in this area, TBU
undertook to improve policies and procedures with respect to subaward monitoring. These policies and
procedures, if implemented properly, should resolve many of the matters noted during this audit.
However, as we have not audited the implementation of these policies and procedures or the sufficiency
of them, or any other controls and procedures subsequent to our audit period which ended December 31,
2009, this report does not address changes to policies and procedures that may have been transpiring
during or subsequent to our audit.

Specifically, during the award period the University did not have a formal plan for monitoring
subawardees, such as performing effective annual review of subawardee’s A-133 audit reports; obtaining
supporting documentation; and performing desk reviews and site visits. Also, TBU did not perform an
analysis such as a risk assessment of its subawardees to determine which monitoring procedures should
be performed for each subawardee. The University, to a great extent, relied on the controls and self-

                                                    15
assessments made by the subawardees to ensure that subawardee costs were reasonable, allowable, and
allocable to the NSF award and were in compliance with award terms. We performed on-site audit
procedures at three TBU subawardees that identified noncompliance with NSF requirements and
questioned costs at each location. As a result, we questioned $412,400 of costs and $174,397 of cost
share claimed. Considering that the CISM award involves 13 participating entities, with subaward costs
totaling $19.9 million or 72% of the total $27.8 million in costs claimed under the NSF award, effective
monitoring of subaward expenditures is a critical internal control to ensure overall compliance with NSF
and OMB requirements. Required routine subaward monitoring could prevent or identify any additional
unallowable claimed subaward costs.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110) requires prime
recipients of sponsored awards to establish a system of internal controls to ensure that subawardees use
federal funds in accordance with laws, regulations and contract/grant agreements. 2 CFR 215, Subpart C,
§215.51, Monitoring and Reporting Program Performance, states that:

       “(a) Recipients are responsible for managing and monitoring each project, program,
       subaward, function or activity supported by the award. Recipients shall monitor subawards
       to ensure subawardees have met the audit requirements as delineated in Section .26.”

Further, OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, also
requires federal awardees to monitor activities of subawardees to ensure compliance with program and
administrative requirements and to ensure that performance goals are achieved. TBU, as a pass-through
entity, is responsible for monitoring subawardee activities to provide reasonable assurance that the
subawardee administers federal awards in compliance with federal requirements; for ensuring required
audits are performed and requiring subawardees to take prompt corrective action on any audit finding;
and for evaluating the impact of subawardee activities on its ability to comply with applicable federal
regulations.

OMB Circular A-133, Subpart D 400 (d) prescribes certain procedures that a pass-through entity (the
University) must perform with respect to its subawardees. With respect to monitoring and resulting
decisions, A-133 requires the University to:

       “(3) Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
       for authorized purposes in compliance with laws, regulations, and the provisions of contracts or
       grant agreements and that performance goals are achieved.

       (4) Ensure that subrecipients expending $300,000 ($500,000 for fiscal years ending after
       December 31, 2003) or more in Federal awards during the subrecipient's fiscal year have
       met the audit requirements of this part for that fiscal year.

       (5) Issue a management decision on audit findings within six months after receipt of the
       subrecipient's audit report and ensure that the subrecipient takes appropriate and timely
       corrective action.”

The NSF Grant Policy Manual, Section 301, also specifies that grantees are responsible for managing
and monitoring subaward performance and exercising prudent management of all expenditures and
actions affecting the grant.


                                                  16
The University’s own guidance on subawardee monitoring is minimal and consisted primarily of desk
procedures pertaining to the review and processing of subawardee invoices.

TBU’s Subawardee Selection Process
The University’s procedures performed for subawardee selection and acceptance to ensure that
subawardees selected have adequate financial grant management practices were not sufficiently
comprehensive. The decision by TBU to involve another entity as a subawardee on a federal award to a
great extent relies on the controls and self-assessments made by the subawardees to ensure that
subaward costs are reasonable, allowable, and allocable to the NSF award rather than on information
that has been verified by TBU staff .
Interviews with the Office of Sponsored Programs (OSP) revealed that the evaluation process for
potential subawardees differs depending on whether the entity is or is not presently receiving an A-133
audit. We found, however, that in either case the risk assessment of potential subawardees performed by
this office is inadequate.

TBU requires entities that are not required to obtain an A-133 audit, to complete subawardee risk
assessment questionnaires addressing the adequacy of their financial management and accounting
systems to administer Federal awards. The questionnaire asks the entity to represent that it has a
financial management system which provides records that can identify the source and application of
funds for award supported activities; provides for the control and accountability of project funds,
property and other assets; and has formal, written policies that address personnel costs, travel,
purchasing and conflicts of interest. Personnel in OSP review these questionnaires, however, policies do
not require them to perform additional procedures to verify the information reported on the
questionnaires. Thus, these procedures to evaluate the suitability of potential subawardees are of limited
effectiveness.

Prior to 2009 the University did not have a standard set of terms and conditions for subawardee
agreements. In 2009 a Research Subaward Agreement, dated June 2009, was adopted for use with
subawardees who are required to receive an A-133 audit. This agreement sets forth the terms of the
subaward and requires the potential subawardee to certify that it “complies with A-133 and that it will
notify Prime Recipient of completion of required audits and of any adverse findings which impact this
subaward.” The subrecipient also assures that “it will comply with applicable statutory and regulatory
requirements….found at http://www.nsf.gov/bfa/dias/policy/rtc/appc.pdf.” Copies of A-133 audit
reports are only required if the subawardee believes the audit includes any adverse findings which
impact this subaward.

There were no policies or procedures in place that provide for more in-depth subawardee evaluation
beyond accepting the representations of organizations subject to an A-133 audit, or relying on the
judgment of the subawardee as to whether A-133 findings impact the subaward.

The University’s monitoring procedures did not require that a Risk Assessment Questionnaire be
completed for organizations subject to A-133 audits. There were no requests for copies of all A-133
audit reports or information concerning the existence and contents of reports of other regulatory auditors.
No routine visits to subawardees were made to further evaluate the adequacy of the subawardee’s grant
financial management systems. We were informed that, while an on-site visit to a subawardee would be
possible, no such visit has ever occurred for a potential subawardee other than 2 visits to Alabama A&M
in 2003 when the award activities were initiated at that institution.

                                                   17
Prior to approval of an entity as a subawardee, TBU should perform a more in-depth review to determine
if the subawardee’s financial management, the accounting system, and internal controls are adequate to
account for NSF program funds in accordance with federal requirements.
TBU’s Subawardee Monitoring Process

The University’s procedures performed with respect to ongoing subawardee monitoring and risk
assessment were also not sufficiently comprehensive. Interviews with the Research Accountants in the
Post Award Financial Operations (PAFO) office and the Principal Investigator (PI) disclosed that the
role of the Research Accountant is primarily to ensure subawardee invoices are in accordance with the
subawardee budget and are properly coded, while the role of the PI is to ensure that progress is made on
the funded research. Neither of these reviewers performs procedures sufficient to determine that
subawardee costs are allowable and documented, and the subawardee’s internal controls are adequate to
account for program funds in accordance with federal requirements.

The most significant aspects of monitoring subawardees during the award period rest primarily with the
PI, and include:

   •   Monitoring billings and evaluating subawardees’ efforts toward meeting performance
       goals.
   •   Screening performance reports submitted by subawardees.
   •   Maintaining regular contact with subrecipients and inquiring about program activities and
       achievement of performance goals.

The PI for the Center does not visit subawardee sites.

Subawardee invoices are also reviewed by Research Accountants in PAFO. The objectives of this
review are set forth in the Research Accounting E-Manual which states:

       “The RA Admin will review the invoice for the following details:
          • PI signature,
          • To assure that it is within the effective period of the subcontract,
          • To verify that the subcontract funding is available on both FS04 and PO02 and
             that the department has assigned the correct object code to the expense (0915 on
             the first $25,000 and 0958 on amounts over the first $25,000),
          • To reconcile the total amount paid on PO02 to the new cumulative total on the
             invoice allowing for the current charges,
          • To verify that the approval amount agrees with the amount requested for payment
             on the current invoice.”

This review does not address the reasonableness, allowability, allocability or consistency of the costs
claimed in relation to the terms of the subaward agreement.

Further, TBU’s guidance with respect to obtaining and reviewing A-133 Single Audit Report throughout
the life of the award, indicates that the reports were not always reviewed for internal control weaknesses
and instances of noncompliance. The University’s Research Accounting E-Manual addresses the
processing of A-133 Single Audit Reports and A-133 Certification Request Letters as follows:



                                                   18
       “Recipients are given one month to respond to the A-133 Certification Request Letter.
       Responses are logged with the date they are received. If they do not respond by the
       deadline, send a second request, marked 2nd Request, giving the recipient one more
       month to respond. If they still do not respond check the Federal Audit Clearinghouse
       website http://harvester.census.gov/sac/ to see if their audit has been filed. If so print off
       and update the log with the date in the Date fr FAC. If the FAC does not have the report
       all subsequent requests are to be made via phone followed up with a faxed copy of the
       letter.”

This guidance does not provide assurance that A-133 Single Audit Reports are actually received and
reviewed for information relevant to the ongoing assessment of fiscal compliance with NSF award
terms.

During our interviews the PIs stated that they monitor for performance and achievement of award
objectives. The PI and PAFO personnel stated that most subawardees were either major universities or
large commercial laboratories and thus were considered to be reputable. Also, they stated that many of
their subawardees had Single Audits performed in accordance with OMB Circular A-133, and that TBU
relied on the Singe Audit of the subawardee to ensure that the costs claimed by its NSF subawardees
were accurate, valid, allowable and adequately documented. Therefore, the TBU personnel indicated
that they believed further investigation of the suitability of these institutions for a subaward was
unnecessary, and that further fiscal monitoring with respect to controls and compliance was also not
warranted.

We understand that federal awards determined to be of sufficiently high dollar or high risk are subject to
individual testing under OMB A-133 provisions. However, in the event that NSF awards are not
considered to be a major program, these awards may not be subject to review during an A-133 audit.
Therefore, TBU’s reliance on the results of an A-133 Single Audit to fiscally monitor its NSF grant
subawardees did not constitute adequate fiscal monitoring of its subawardees.

Throughout the period of the award, TBU should annually ensure that required A-133 audits have been
conducted and:

   •   Obtain certification that the required A-133 audit has been completed,
   •   Obtain certification that audits by other regulatory agencies have or have not been
       conducted,
   •   Obtain and review all audit reports for pertinent findings and ascertain with subawardee
       that timely and appropriate correction action was taken if findings were indicated,
   •   If subawardee is required to but fails to have an A-133 audit performed or does not correct
       the findings, take appropriate sanction action, such as refusing to issue subsequent awards
       or implementing other mitigating controls,
   •   Evaluate impact of A-133 audit findings on TBU,
   •   Assess the effect of subawardee actions on the University’s ability to comply with federal
       laws and regulations, and
   •   Document the results of the assessment.

Similarly, the TBU did not have policies and procedures to adequately monitor cost sharing claimed by
subawardees. Subawardees submit periodic invoices for claimed costs. These invoices include a section
for the certification of cost shared for personnel, travel, participant support, other direct, indirect and
equipment costs. These subawardee certifications are the only source documentation maintained by
                                                    19
TBU to support the subawardees’ amounts claimed as cost sharing. No other detail listing or source
documentation is submitted by the subawardees with their certifications to support the cost sharing
claimed. In addition, TBU has no process in place to verify the accuracy and validity of the expenses
claimed on the subawardee certifications. The University relies on the subawardees’ certifications to
ensure the cost sharing amounts are accurate and properly documented.

An effective subawardee evaluation and monitoring approach would require the evaluation of potential
subawardees prior to award and ongoing monitoring of subawardees that receive federal flow through
funding from Federal sources. The purpose of the plan is to establish a monitoring system that defines
subawardee monitoring and the required core monitoring areas; ensure monitoring of all subawardees;
and eliminate duplication of monitoring efforts.
Results of Auditor’s Subawardee Site Visits - As a result of the subawardee monitoring internal control
deficiencies, we performed on-site procedures at three of TBU's subawardees to satisfy ourselves that
the subawardee costs charged by TBU to its NSF grants were reasonable, allowable and allocable. As a
result of our additional on-site procedures, we questioned $412,400 of costs claimed under NSF award
number ATM-0120950 because such costs were unallowable, inadequately supported, or represented
indirect costs improperly charged as direct costs. We also questioned $174,397 of cost share claimed by
2 subawardees because the costs are not allowable under federal cost principles.

The following is a description of the exceptions we noted during our on-site visit at the University
Corporation for Atmospheric Research (UCAR), University of Colorado at Boulder (CU-Boulder), and,
Dartmouth University.

University Corporation for Atmospheric Research (UCAR)

The University Corporation for Atmospheric Research (UCAR) charged, as depreciation, bond principal
payments of $60,000 which represented 50% of the cost of a multi-processor computer, as well as
interest and bond issuance costs on the bonds of $4,645. The computer was purchased prior to the
award, and was used for activities unrelated to the award. The PI at UCAR stated that the computer was
used extensively on award-related activities, however, there was no formal or documented basis to
support the allocation of 50% of the costs associated with the computer to the CISM award. The NSF
Program Officer, upon learning of this finding, stated that he acknowledged that the computer was
largely used for CISM computing but that does not relieve UCAR from having adequate processes for
quantifying the usage, nor TBU from its subaward oversight responsibilities. In addition, OMB Circular
A-122, Cost Principles for Non-Profit Organizations 1, states that a cost is allocable to a Federal award if
it “benefits both the award and other work and can be distributed in reasonable proportion to the benefits
received.” Because there is no documented basis for the allocation of costs to the award, we were
unable to determine whether the costs of $64,645 were allocable to the award.

Further, as discussed in OMB Circular A-122, depreciation of equipment and interest on debt associated
with equipment are typically classified as indirect costs. Section D.3.C(1)(b) states that “Depreciation
or use allowances on buildings used for more than one function, and on capital improvements and
equipment used in such buildings, shall be allocated to the individual functions performed in each
building on the basis of usable square feet of space, excluding common areas, such as hallways,
stairwells, and restrooms.” UCAR did not have a basis for allocating the costs of the computer to the
award.

1
 UCAR is a non-profit organization and is therefore subject to OMB Circular A-122, Cost Principles for Non-Profit
Organizations.
                                                           20
The UCAR also charged indirect costs such as telephone, postage and shipping charges, amounting to
$11,603, as direct costs, even though such costs are typically charged as indirect costs and may be
included in the indirect cost rate. UCAR personnel stated that the development of their indirect cost rate
is based on total division costs and thus they did not consider whether administrative costs such as
postage and telephone were recovered through the indirect cost rate.

Additionally, costs not required to accomplish award objectives were charged to the award, such as
conference give-aways in the form of 700 calculators, 1,000 mouse pads and 300 tote bags emblazoned
with the CISM logo, ($3,491), translation of UCAR’s Windows to the Universe web site to Spanish
($4,556), and a Visa application fee for entry into the United States ($500). With respect to the latter
two charges, their focus on international participation, while perhaps a worthy objective, is not
consistent with the objectives of the award, which include 2:

       c. Increase participation of United States citizens, nationals, or lawfully admitted
          permanent resident aliens of the United States, especially women and members
          of underrepresented groups, in the activities of the Center…” and

       d. Provide educational and research opportunities at the Center and its subawardees
          for United States citizens, nationals, or lawfully admitted permanent resident
          aliens of the United States.....”

The above costs are also unallowable under OMB Circular A-122 which states that, in order for a cost to
be an allowable charge to a federal award, it must be “ordinary and necessary for the operation of the
organization or the performance of the award.” 3

A UCAR management fee of $143,165, representing               of award expenditures, was charged to the
award. Documents describing the UCAR management fee state that “the purpose of the management
fee is to enable the organization to accumulate a reserve to provide organizational stability as well as to
pay prudent business expenses not otherwise reimbursable.” The fee is to be charged on all
governmental and commercial awards, at a rate of        and       respectively, with the exception of direct
funding from NSF. With respect to the CISM award, UCAR is a participant in a consortium and
receives NSF funding passed through TBU. However, the NSF’s Grants Policy Manual, Section 640,
states that the “payment of fees is allowable only if specifically permitted by a program solicitation and
only to the extent that it does not exceed the amount negotiated by the Grants Officer and specified in
the award letter.” The fee was not identified in the grant letter authorizing the award or in the
accompanying award budget, and it was not addressed in the subaward agreement, and thus does not
meet the criteria of an allowable cost.




2
 Grant Letter for Award-0120950, B. Statement of Work & Awardee Responsibilities, 2.c and 2.d,
documents the component of the CISM award focusing on education and knowledge transfer.
3
  OMB Circular A-122, Attachment A, General Principles, A.2.a. states that, “In determining the
reasonableness of a given cost, consideration shall be given to: a. Whether the cost is of a type generally
recognized as ordinary and necessary for the operation of the organization or the performance of the
award.”


                                                    21
Foreign travel of $28,698 was charged to the award even though such costs were not approved in
advance or included in the NSF-approved budget, as required. The line item for foreign travel in the
annual budgets for UCAR was left blank each year of the award. OMB Circular A-122, Attachment B,
Selected Items of Cost, Paragraph 51.e, Foreign Travel, states that “Direct charges for foreign travel
costs are allowable only when the travel has received prior approval of the awarding agency. Each
separate foreign trip must receive such approval.”

UCAR claimed as cost share a percent of the vendor discounts offered to conference participants,
primarily school district personnel, for books, software and software licenses. The vendors were
afforded an opportunity to present and sell their software to audiences of K-12 educators attending
summer workshops partially supported by the CISM. The vendors offered discounts of approximately
40% to 50%; discounts, if any, on future year upgrades and support were not addressed. The cost share
included a value assigned to time spent by employees of the software company attending and instructing
conference participants in the use of the company’s software. The discounts and time were valued by
the vendors at $617,050, and the portion claimed as cost share on the CISM award was $157,226.

There were 2 software packages available for purchase by the school districts;            which is a type
of geographic information system (GIS) software, and            which is used to create numerical models.
These costs represent customary business practices of a commercial nature and should be considered
promotional activities of the company. These competitive open-market discounts should not be funded,
in any form, by NSF. 2 CFR 220 (OMB Circular A-21.J.1.f) states that unallowable advertising and
public relations costs include “All advertising and public relations costs other than as specified in
subsections 1.c, 1.d and 1.e”, and “Salaries and wages of employees engaged in setting up and
displaying exhibits, making demonstrations, and providing briefings”. Further, 2 CFR 215 (OMB
Circular A-110), Uniform Administrative Requirements For Grants And Agreements With Institutions
Of Higher Education, Hospitals, And Other Non-Profit Organizations, § 215.23 Cost sharing or
matching, states that contributions, including third party in-kind, may be accepted as cost sharing when
such contributions “are necessary and reasonable for proper and efficient accomplishment of project or
program objectives.” The sale of software and software licenses and books concerning its use, while
perhaps beneficial to the school district customers, has not been demonstrated to be necessary for
achieving the award’s mission, which is “to develop advanced computer models to specify and predict
space weather from the surface of the sun to the surface of Earth.” Accordingly, we questioned the
$157,226 of cost share claimed by UCAR because the costs are not allowable under federal cost
principles.

In total, we questioned $256,658 in claimed costs and $157,226 in claimed cost share on TBU’s
subaward with UCAR.

University of Colorado at Boulder (CU-Boulder)

The University of Colorado at Boulder (CU-Boulder), charged foreign travel to the CISM award in the
amount of $125,963. A total of $54,176 was included in the budgets submitted to TBU and NSF for
CU-Boulder. The balance of $71,787 was not identified in award budgets and we were unable to obtain
evidence of advance approval by NSF. Further, our audit tests revealed that individual travel is not
reviewed adequately to ensure compliance with OMB allowable cost principles. Specifically, one trip to
Perugia, Italy resulted in charges to the CISM award of $8,495. This trip involved 3 nights of duplicate
hotel bills, with each night charged to one hotel and also to another hotel. Explanations for the
duplicate charges were not reasonable. The travel also included apparent side trips to resort areas for
which hotel, rental car and per diem charges were incurred. Included in the $8,495 were costs

                                                   22
associated with visits to Munich, Germany both prior to and after the conference held in Italy.
Although documentation of the need for these visits was requested by the auditors, none was provided.
Because CU-Boulder could not provide support for the portion of the trip that would be allowable, the
entire cost of this trip is questioned.

The CU-Boulder also charged unallowable costs in the form of relocation moving expenses for a new
employee. The NSF’s Grants Policy Manual, Section 624.a.1, states that moving expenses are allowable
if “a proposal for NSF support specifically indicates that the grantee intends to hire a named individual
for full-time work on the project”. This condition was not met and the $6,000 of moving expenses
charged to the CISM award are therefore not allowable.

The CU-Boulder charged consultant costs at rates exceeding the allowable amount. The NSF Grants
Policy Manual, paragraph 616.1.c. states that “payment for a consultant's services may not exceed the
daily equivalent of the then current maximum rate paid to an Executive Schedule Level IV Federal
employee (exclusive of indirect cost, travel, per diem, clerical services, fringe benefits and supplies).”
The consultant whose fees and expenses were charged to the CISM award was paid in excess of this rate
and also did not provide documentation to support his expenses. Therefore, excess and undocumented
consultant costs amounting to $42,795 are considered unallowable. These consultant costs charged were
charged as both direct costs ($25,624) and as cost share ($17,171). An additional charge to the award
was made in March of 2010 in the amount of $18,969. This charge has not been audited and no amounts
associated with it are included in the questioned costs identified for the award period ending December
31, 2009.

The CU-Boulder charged payroll and fringe benefits at a rate exceeding the institution’s base rate of
pay, resulting in excess charges of $4,172. An effort report could not be located to support personnel
costs for one individual charged to the CISM award amounting to $39,990, consisting of $20,996 of
salary, $5,879 of fringe benefits and indirect costs of $13,115. However, the effort report was located in
March 2011, and these costs are no longer questioned. Another individual certified an effort report that
did not reflect $13,333 of personnel costs (salary of $7,000, fringe benefits of $1,960 and indirect costs
of $4,372) which were later transferred to the award. Therefore, these costs are not supported by a
certified effort report.

Indirect costs such as telephone, postage and shipping charges, amounting to $673, were charged as
direct costs, even though such costs are typically charged as indirect costs and may be included in the
indirect cost rate.

In total, we questioned $138,790 in claimed costs on TBU’s subaward with CU-Boulder.

Dartmouth University

A third subawardee, Dartmouth University, demonstrated appropriate internal controls over most aspects
of award fiscal administration. The only discrepancy identified at this institution was the absence of a
certified effort report for one effort reporting period. While the effort report was generated and signed,
the certifier specifically noted on the effort report that he was unable to attest to the accuracy of the
effort allocations reported. Therefore, as the effort charged to the CISM award is not supported by
validation from the individual whose effort was charged, the personnel costs of this payroll period for
this individual are questioned in the amount of $34,153, representing $17,434 in salary, $6,276 in fringe
benefits and $10,443 in indirect costs.


                                                   23
In total, we questioned $34,153 in claimed costs on TBU’s subaward with Darthmouth.

These instances of noncompliance and the associated questioned costs, and, the internal control
weaknesses at the selected subawardee institutions were not detected by the TBU through its
subawardee monitoring process because these processes are inadequate to effectively monitor
subawardees. The lack of an effective risk assessment process and follow-up on other auditor’s findings
is caused primarily by the OSPs perception that the existence of an A-133 audit supplemented with PI
programmatic monitoring and review of subawardee invoices constitutes sufficient subawardee
management. Although the University recognizes that subawardees are required to comply with the
provisions of OMB Circular A-133 and the terms of the federal award, its procedures are not sufficient
to ensure that potential subawardees have systems in place to promote such compliance and that existing
subawardees maintain such systems throughout the award period. Considering the significance of
subawardee costs to the award under audit, subaward expenditures must be effectively monitored to
avoid noncompliance potentially resulting in ineffective research, disallowed costs and a directive to
return grant funds to NSF or other sponsoring agency.

The TBU could improve their subaward monitoring process by including a risk based process to assess
the risk of their subawards to determine the level of subawardee oversight necessary. They could also
perform site visits or conduct other programmatic reviews to oversee the progress of ongoing work and
review completed tasks; and, obtain and review all subawardee A-133 audit reports, internal inspection
programs, quality control reviews, and other types of compliance requirements of the subawardees. A
formal subaward monitoring plan and routine subaward monitoring could prevent or identify
unallowable subaward costs claimed for NSF awards.


Recommendation No. 1

We recommend that NSF’s Director of the Division of Institution and Award Support address and
resolve the following recommendation made to TBU. We also recommend that NSF require TBU to
submit documentation in sufficient detail to demonstrate that corrective action taken or proposed is
sufficient to resolve the control deficiencies noted.

       a. Develop formal and comprehensive risk-based subawardee fiscal monitoring procedures to
          ensure that subaward costs are reasonable, allowable, and allocable to the NSF award. These
          procedures should require that TBU:
            • Obtain certification that the required A-133 audit has been completed,
            • Obtain certification that audits by other regulatory agencies have or have not been
              conducted,
            • Obtain and review all audit reports for pertinent findings and ascertain with
              subawardee that timely and appropriate correction action was taken if findings
              were indicated,
            • If subawardee is required to but fails to have an A-133 audit performed or does not
              correct the findings, take appropriate sanction action, such as refusing to issue
              subsequent awards or implementing other mitigating controls,
            • Evaluate impact of A-133 audit findings on TBU,
            • Assess the effect of subawardee actions on the University’s ability to comply with
              federal laws and regulations, and
            • Document the results of the assessment.


                                                  24
       b. Ensure that the procedures include clearly defined monitoring responsibilities from pre-
          award through the award completion stages. The monitoring procedures should include desk
          reviews, site visits, and other monitoring steps, as necessary.

       c. Identify all management fees that have been erroneously claimed on the NSF award since its
          inception and adjust the claims accordingly.

Awardee's Comments

The issues described in this finding have been addressed with development and implementation of
appropriate policies and procedures. Upon notification of these deficiencies in April 2010, Boston
University immediately began developing and implementing policies and procedures including, but not
limited to: a Subrecipient Manual, Annual Subrecipient Certification, Prequalifying Questionnaire, Risk
Analysis tools, and Subrecipient Invoice Review Guidelines which were fully implemented in
November 2010 that fully address the recommendations noted above.

Additionally, ongoing training is provided to Post Award Financial Operations’ and Office of Sponsored
Programs’ staff to ensure consistency, completeness, and appropriate escalation steps are taken when
circumstances arise that may warrant adding additional language to subaward agreements, desk audits,
and other appropriate reviews as necessary.

We strongly disagree with disallowing $189,702 of the $468,976 questioned costs. Specifically:

   •   $102,226 of foreign travel is allowable. The terms and conditions of the award refer to the NSF
       Grant General Conditions (GC-1) which state “the requirements for prior approval detailed in the
       governing costs principles are waived.” Additionally, per clarification of clause H.5.a in NSF’s
       Science and Technology Center Cooperative Agreement provided by NSF’s Grants and
       Agreements Office to NSF’s Program Officer “the clause does not require NSF approval for
       individual U.S. or foreign students or researchers to participate in Center supported projects and
       activities onsite or abroad. Rather, the clause covers collaborative arrangements between the
       Center and foreign governments or foreign institutions, such as written agreements, memoranda,
       or subawards, or other institution to institution arrangements, such as a university exchange
       program.”

   •   $87,476 payroll costs charged without certified effort reports should not be disallowed.

           o The Dartmouth effort report supporting $34,153 of the questioned costs was certified.
             The fact that the certifier was unable to attest to the penny the dollar amount paid in
             salary does not negate the certification.

           o In regards to CU-Boulder, we have an effort report supporting the $13,332 finding.
             Additionally, $39,990 represents a PAR that was certified but unable to be located. To
             correct this issue, the subawardee would need to ensure that the PAR is appropriately
             certified and on file.




                                                   25
In order to fully respond to the circumstances regarding the remaining $279,274 questioned costs and
$157,266 in questioned cost share described in this finding, our prior request for further cost detail will
need to be fulfilled in order for examination and determination of the validity of the proposed
disallowances. TBU was provided with some limited documentation by the auditors on March 21st and
March 23rd; however, the information was not in an adequate format nor in a timely manner to include
substantive management responses for the March 23rd deadline.
Additionally, as part of the review of all questioned costs identified during this audit, we will review the
appropriateness of any management fees erroneously claimed on the NSF award since its inception.


Auditors' Response

The Awardee’s comments are partially responsive to the recommendation. The University’s statements
that it has revised its policies and procedures address the recommendation pertaining to subawardee
management. NSF will consider these revised policies and procedures to determine their adequacy and
implementation during audit resolution.

With respect to the awardee’s response concerning NSF approval of foreign travel, the Award’s
Financial and Administrative Terms and Conditions require the awardee to “obtain prior written
approval from the NSF Grants and Agreements Officer whenever there are significant changes in the
project or its direction” and the award letter specifically states that “The lead institution, Boston
University, is responsible for planning, operating, and managing the Science and Technology
Center……in accordance with proposal ATM-0120950, as modified by the revisions dated November 7,
2001, and revised budget dated July 26, 2002”. The budget provided for no foreign travel at many
subawardees, and minimal foreign travel at the remainder. The award documents contain no discussions
of plans or a need for foreign travel. Subawardee CU-Boulder, however, charged the CISM award for
travel to Finland, Brazil, Banff Canada, Italy, Poland, Bulgaria, Greece, Japan, France, Germany,
Belgium, Chile, Mexico, Hungry, Singapore, Montreal Canada and Alberta Canada. Subawardee
UCAR, with no budgeted foreign travel, charged foreign travel in 2003, 2004, 2005 and, in 2008. Such
extensive foreign travel is not consistent with the stated objectives of the award or the means by which
they were set forth to be accomplished. NSF can consider whether the travel was within the scope of the
program during the audit resolution process.

With respect to the awardee’s response concerning effort reporting deficiencies, missing effort reports or
effort reports on which the signer notes that he “cannot validate the figures detailed on the attached
sheet” constitute inadequate support for labor charges and the related benefits and indirect costs. The
effort report referenced as supporting $13,333 in costs actually certifies 100% of effort as expended on
another project or cost center. We have, however, recently learned from CU-Boulder that a missing
effort report has been located to support the charges of $39,990 (salary of $20,996, fringe benefits of
$5,879 and indirect costs of $13,115) and we are reinstating those costs which are therefore not reflected
as questioned costs on Schedule A.

With respect to the remaining questioned costs, we note that all requests for cost detail have been
responded to and were addressed within 1 business day of the original inquiry.

This finding should not be closed until NSF determines that the recommendation has been adequately
addressed and the proposed corrective actions have been satisfactorily implemented.



                                                    26
Finding No. 2: Cost Share Commitments Are Not Adequately Monitored, Accounted For or
               Reported

The University does not have adequate internal controls to ensure that cost share is properly identified,
recorded, reported, and monitored. Deficiencies were identified in the procedures for identifying and
recording cost share in the University’s accounting system; monitoring and reporting subawardee cost
share; and reporting accurate cost share amounts to the NSF. We determined that cost share expenses are
not recorded in separate specifically identifiable accounts in the accounting system, cost share as certified
by TBU for the subawardees was not in agreement with cost share reported on the cost share reports from
the subawardees, and costs reported as cost share items included unallowable costs for $157,226 from
one subawardee and $17,171 from another subawardee. This condition occurred because policies and
procedures regarding cost share were minimal and were not effective to ensure these costs were properly
accounted for, recorded, and reported. As a result, the University’s internal control over cost sharing
does not provide assurance that the cost sharing expenditures reported and claimed by TBU or its
subawardees are accurate, allowable, allocable, and reasonable or that TBU’s program objectives are
being met as intended.

NSF’s Grant Policy Manual (GPM), Section 333.6, Cost Sharing Records and Reports, and OMB
Circular A-110, Section 23, require grantees to maintain records of all costs claimed as cost sharing, and
states that those records are subject to audit. These regulations also state that cost-sharing expenses must
be verifiable from the recipient’s records, not be included as contributions to any other federal award, or
funded by any other federal award. OMB Circular A-110, Section 23, also states that, to be accepted as
part of the recipient’s cost sharing, expenditures must be necessary and reasonable for proper and
efficient accomplishment of project or program objectives and allowable under applicable cost principles.

2 CFR Part 215 (formerly Office of Management and Budget (OMB) Circular A-110), Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-profit Organizations, paragraph C.21.(b), requires that recipients of federal
funding have financial management systems that provide “accurate, current and complete disclosure of
the financial results of each federally-sponsored project…” and “effective control over and accountability
for all funds…” With regard to cost sharing specifically, the circular requires that cost-sharing amounts
must be “verifiable from the recipient’s records” and “allowable under the applicable cost principles.”

2 CFR 220 (formerly Office of Management and Budget (OMB) Circular A-21), Cost Principles for
Educational Institutions, provides criteria for determining allowable compensation for personal services.
The circular states that the payroll system will “be incorporated into the official records of the
institution,” and that the payroll system method “must recognize the principle of after-the-fact
confirmation or determination so that costs distributed represent actual costs,” and must allow
“confirmation of activity allocable to each sponsored agreement…”

TBU’s written policies and procedures regarding cost share are minimal, consisting of a summary
provided in its 1998 Disclosure Statement and the instructions for completing the Cost Share
Documentation Form.




                                                    27
Identifying and Recording Cost Share in the Accounting System

The University’s accounting system does not provide for separate accounting for cost share, rather such
costs are recorded in a variety of unrestricted accounts. As described in the University’s Disclosure
Statement, when committed cost share is a component of an award the PI, Grant Administrator (now the
Research Assistant) and Cost Analysis Group are advised. Separate logs are maintained of costs
accumulated that will constitute cost share as these costs are “originally charged to other cost objectives,”
and then “reclassified for cost analysis purposes through identification in the Effort Reporting System
and cost share documentation form”. Because costs are not identified as such in separate cost share
accounts, cost share records and reports are not integrated into the accounting system and must be
manually generated. These procedures for the review of manually created cost share records are not
adequate to ensure that claimed costs are relevant to and allowable under the terms of the award. Also,
this process may allow for cost share items to be claimed as both direct costs and as cost share. A better
process or system to account for cost share, whether manually or within the accounting system, is needed
to ensure that the amount of cost share contributed is accurately recorded.

Monitoring and Reporting Subawardee Cost Share

We also determined that subawardee cost share is not adequately monitored by University personnel,
although more than 62 percent ($5.4 million) of CISM claimed cost share was provided by subawardees.
2 CFR Part 215 (formerly OMB Circular A-110), which requires that cost-sharing amounts be “verifiable
from the recipient’s records” and “allowable under the applicable cost principles.”

The detail of certified cost share from subawardees is maintained at the PI’s location which, for award
ATM-0120950, is the CISM. The practice of the PI reviewing and maintaining cost share records
reflects the University’s philosophy of decentralizing authority for award administration. To provide
adequate internal controls over decentralized functions, decentralization of authority requires thorough
and effective training, systems and written procedures at the decentralized (departmental) level.

Subawardees reporting cost share did not always provide sufficient detail to allow the TBU PI or his
designee to evaluate the reliability of the cost share amount reported. Although TBU’s reporting form
requests detail to support captions such as “salaries,” this detail is sometimes omitted by the subawardee
with no apparent consequence.

The lack of support for subawardee cost share is in stark contrast to the more comprehensive
requirements TBU recently imposed on its own research personnel. The Cost Sharing Documentation
form for use at TBU was created in May of 2009, and thus was not in use during most of the award
period beginning in July 2002. The form requires the following attachments:

   •   Personnel Action Reports that support the cost share
   •   For student tuition, a list to include the name, University ID Number, Year/Semester and
       dollar amount
   •   For student stipend payments, a copy of the Budget Status Report which supports the
       expense with the cost sharing item identified.
   •   A copy of the Budget Status Report which supports this expense with the cost sharing
       item(s) identified.
   •   For in-kind contributions, the PI is to maintain departmental records supporting the value
       of each in-kind item and provide copies of this documentation to Research Accounting.

                                                    28
While the attached information provides a fairly thorough and auditable record of TBU cost share, no
such information is requested or required for cost share provided by subawardees. Therefore, the cost
share claimed by subawardees was not always supported with sufficient documentation to allow TBU,
as the primary awardee, responsible for monitoring the activities of the subawardees, to thoroughly
review the claimed cost share for accuracy and reasonableness.

We determined that one subawardee included as cost share the discounts on books, software and site
licenses offered by two vendors at a summer session involving CISM research and attended primarily by
school district representatives. This transaction was purported to represent $617,050 of value, of which
a percentage representing $157,226 was claimed as cost share on the CISM award. However, the
offering of discounts by a vendor represents a marketing strategy for product promotion and sales to
third party school districts and does not involve the sharing of project costs by the subawardees. It is
thus is not allowable as a component of cost share. See the discussion on unallowable cost share claimed
by UCAR in finding 1 for more details.

Another subawardee charged consultant costs of $42,795 at rates exceeding the allowable amount
governed by the maximum rate paid to an Executive Schedule Level IV Federal employee (exclusive of
indirect cost, travel, per diem, clerical services, fringe benefits and supplies), and without documentation
to support the consultant’s expenses. Total consultant costs charged ($42,795) were questioned; $25,624
was questioned as a direct charge to the award and $17,171 was questioned as cost share. This item is
discussed further in Finding 1.

Representatives of the University’s central OSP or the PI could visit subawardee sites and obtain further
evidence of support for cost share claimed. However, the PI advised us that there had been no visits to
subawardee sites after the initial start up of the award in 2003 at which time two visits were made to
Alabama A&M. No other sites have been visited by either the PI or OSP.

Cost Share Certification and Reporting to NSF

We determined that the University does not maintain adequate cost sharing records to support cost share
certifications provided to NSF. The cost share records maintained at the departments do not agree with
the amounts recorded in the general ledger and neither of these amounts agrees with the cost share
amounts certified in the annual certifications to NSF. Further, TBU does not require that cost share
reports from subawardees contain sufficient information for a meaningful evaluation of the
reasonableness of cost share reported. Therefore, it is not possible to determine whether subawardee cost
share records are adequate to support cost share certified. Also, cost share as reported in the University’s
accounting system is not routinely reconciled to the individual TBU and subawardee cost share reports or
to the annual cost share certifications submitted to NSF.

Specifically, the cost share certified to NSF, which includes cost share provided by subawardees, was not
in agreement with all respective subawardee cost share certifications. The terms of Award ATM-0120950
regarding cost share included the following clause:

       “As a condition of this award, the grantee agrees to share in the costs of the project in the
       amount of 30% of the total award amount……. The amount of cost sharing must be
       documented on an annual and final basis…”

During our audit we noted that stated cost share amounts were inconsistent for the CISM award in that
cost share required in the NSF amended budgets through year 6 (2008) was $7,108,000, while cost share

                                                    29
per subawardee cost share reports and TBU accounting records totaled $7,473,542, but certified cost
share reported through NSF’s FastLane System was $7,640,989. In response to the audit, TBU
ultimately resolved the differences and made corrections as necessary to the cost share records, however,
considerable time and effort was required before complete and accurate cost share records were available.
As another consequence, the inability to separately record and identify cost share items through the
accounting system complicates efforts to ensure that such costs and the related indirect costs are not also
charged to another NSF or Federal award.

TBU’s written policies and procedures regarding cost share are minimal, consisting of the summary
provided in the 1998 Disclosure Statement and the instructions for completing the Cost Share
Documentation form. We were unable to locate written policies or procedures for maintaining cost share
summary records, compiling cost share certification information or analyzing subawardee cost share. We
also noted that various records and reports purporting to present amounts reported as cost share were
inconsistent.

As a result of the differences noted, we expanded our audit procedures to review the detail of all cost
share submissions for reasonableness in relation to the award objectives and the responsibilities assigned
to each award participant. We noted that the majority of award participants provide cost share primarily
or solely in the form of PI, graduate or post graduate researcher salaries and the related fringe benefits
and indirect costs.

The failure to properly identify and record cost share in the University’s accounting system or some other
reliable method, the inconsistency between the various cost share records, and, the lack of thorough
monitoring of subawardee cost sharing increases the risk that TBU may not be adequately accounting for
and monitoring cost sharing promised on this award. Accordingly, the University’s internal control over
cost sharing does not provide assurance that the cost sharing expenditures reported and claimed by TBU
or its subawardees are accurate, allowable, allocable and reasonable or that TBU’s program objectives are
being met as intended.

Recommendation No. 2

We recommend that NSF’s Director of the Division of Institution and Award Support address and
resolve the following recommendations made to TBU:

   a. Ensure the University OSP and PIs review cost share reports for sufficient detail to allow a
      meaningful evaluation of the reasonableness of reported amounts.
   b. Establish, communicate and document procedures requiring the University OSP to reconcile cost
      share recorded in the general ledger (or other established manual process) to cost share reported
      by TBU and the subawardees, and to cost share certifications to NSF.
   c. Direct the University to prepare written policies and procedures for managing cost share and
      provide training to PIs and the RAs regarding the correct process for properly evaluating,
      recording, and reporting all committed cost share associated with sponsored awards, including
      that submitted by subawardees.

Awardee's Comments

The University disagrees with the finding stating costs reported as cost share items included significant
unallowable costs for $157,226 from one subawardee. More documentation is required to fully respond
to the finding.

                                                   30
The University is implementing a new financial accounting system on July 1, 2011. The accounting
system will include companion accounts designated to record the University’s cost share activity per
project. This will provide more transparency improving the management of cost share.

Additionally, the University will develop and implement written policies and procedures for managing
cost share and provide training to assist in ensuring that cost share is allowable, allocable, and accurately
recorded and reported. The University will develop and implement adequate reconciliation procedures
between our financial system, cost sharing reports, subawardess documentation, and cost share
certifications to NSF.

Auditors' Response

The actions that BU states have been taken to strengthen policies and procedures for the managing,
recording and reporting of cost share are responsive to the finding and recommendation. Documentation
to support the finding has been provided to Boston University. This finding should not be closed until
NSF determines that the recommendation has been adequately addressed and the proposed corrective
actions have been satisfactorily implemented.

Finding No. 3: Monitoring of Employee Terminations and Accrued Sick Leave is Inadequate

The University’s system of internal controls over the personnel/payroll function is not adequate to
prevent the continuation of payroll checks or deposits after an employee has terminated their
employment with the University. Also, internal controls at CISM are not adequate to ensure that sick
leave is accurately recorded and reported for CISM employees.

Specifically, there is no process or requirement in place requiring that someone independent of the
payroll initiation and distribution functions notify a party outside of the department where they work,
such as the University’s Office of Human Resources, when a non-student employee is terminated.
Further, with respect to monitoring and accounting for sick leave, while the University’s personnel leave
policy requires all departments to maintain records of employees’ accumulated sick leave balances, such
records are not maintained for CISM employees. These conditions occurred because of a lack of
emphasis on the importance of internal controls over unauthorized compensation for terminated
personnel, and, improper sick leave practices and reporting for CISM employees. The lack of effective
internal controls over the payroll/personnel functions and employee leave practices place NSF funds at
risk and may result in costs claimed that are not reasonable, allowable, and necessary for the NSF award.

2 CFR 220 (Office of Management and Budget Circular A-21), Cost Principles for Educational
Institutions, requires that institutions have adequate internal controls in place, including segregation of
duties. The circular states that, “the institutions financial management system shall ensure that no one
person has complete control over all aspects of a financial transaction.”

2 CFR 220 (OMB Circular A-21) also provides criteria for determining allowable compensation for
personal services. The circular states that the payroll system will “be incorporated into the official records
of the institution.”




                                                     31
The University’s Employee Handbook, 302.9 Other Provisions, states the following:

       “Supervisors are responsible for maintaining complete and accurate records of the Sick
       Leave accruals and usage for each employee under his or her supervision. Supervisors are
       also responsible for accurately reporting Sick Leave usage on all documents submitted to
       the Payroll Office.”

The University does not have adequate internal controls over the termination of employees, and, the
reporting of sick leave. These controls do not ensure that personnel and payroll records are adjusted on a
timely basis to reflect employee terminations nor do they ensure that sick leave is accurately recorded and
reported in accordance with University requirements.

We noted during our audit that, with respect to employee terminations, internal controls are not in place
to ensure that a non-student employee’s pay check ceases to be generated when they are terminated or no
longer employed by the University, and thus cannot be improperly accessed by someone other than the
designated employee. There are no policies or procedures in place that requires the Office of Human
Resources to be notified of the termination of non-student employees. We were informed by CISM
administrative personnel that, when a non-student employee is terminated, only the PI is required to be
notified. There is no control in place to ensure that a third party such as HR is notified of the employee’s
termination and that the employee should no longer receive paychecks or payments by direct deposit.

The University’s Employee Handbook, 204.4 Related Consideration, addresses terminating employees
but does not provide for notification to HR of the termination. The Handbook states the following:

       “Terminating employees are required to make arrangements to settle all outstanding
       University accounts prior to their last day of work. In addition, all terminating employees
       are required to return to the University all University property in their possession,
       including but not limited to their University identification card, University parking sticker,
       and all other University property (keys, books, tools, computers, computer software,
       etc.).”

This condition is contrary to the process for student employees, where the University’s policies and
procedures require that someone independent of the payroll distribution function is notified of the
termination. When a student employee is leaving the University’s employment, the student is to notify
the PI and his or her departmental advisor of the pending termination. The advisor then notifies the
University’s Office of Human Resources that the student has terminated employment with the University.

During our tests of payroll expense transfers, we noted that one individual received a payroll check for
the month following his termination date. The University’s internal controls did not detect this error;
rather the former employee notified the University and requested that the checks cease. The employee
appropriately refunded the amount erroneously paid to the University. This situation illustrates the
potential for improper payments to occur and the resulting complications should the former employee not
report the problem and return funds erroneously paid by the University.

Effective internal controls over the payroll/personnel functions would provide assurance that non-student
employee payroll checks or deposits would cease for employees that are no longer employed by the
University. These controls would allow for personnel and payroll records to be properly adjusted on a
timely basis to reflect employee terminations.


                                                    32
We also noted during our audit that internal controls are not in place to ensure that sick leave is
accurately recorded and reported for CISM employees. With respect to leave records, the CISM
administrator explained that each employee in the department keeps his or her own sick and vacation
leave records. TBU’s Office of Human Resources publishes a Manager’s Toolkit, which describes a
supervisor’s responsibility for tracking sick leave. The Toolkit, which is available online, states the
following:

       “As a manager, you are responsible for maintaining the accuracy of accrued sick and vacation
       leave records for your non-exempt and exempt staff.”

However, TBU’s practice at CISM is that employees notify the PI if they require time off. The PI does
not keep a cumulative record of the employee’s sick leave accrued or taken. The department is required
to submit vacation leave balances to the University Comptroller once a year; however, there is no such
requirement for sick leave.

The absence of verifiable records of employees’ cumulative sick leave in the accounting system prevents
the confirmation that University policies regarding the amount of sick leave accrued each month and the
maximum amount of leave allowed are being followed. Further, a policy that allows self-policing of
sick leave provides no assurance that amounts reported at year-end are accurate. As a result, there is no
auditable record of its employees’ accumulated sick leave balances.

Effective internal controls over the accountability and reporting of sick leave for CISM employees would
provide assurance that the correct leave balances are accumulated and reported in accordance with
University requirements. These controls would allow for personnel and payroll records to accurately
reflect employee sick leave balances.

These conditions occurred because of a lack of emphasis on the importance of internal controls over
unauthorized compensation for terminated personnel, and, improper sick leave accounting practices and
reporting for CISM employees. Personnel at CISM explained that they have not considered
implementing additional controls over employee terminations because employees are primarily paid by
direct deposit, and therefore the risk of improper access to paychecks is considered acceptable. The
University also believes that PIs will advise their departmental administrator of terminations, and that
appropriate procedures will be employed, even without notification to the Office of Human Resources.
Also, records of accumulated sick leave are not maintained because CISM personnel are unaware of such
a requirement, and do not believe such record-keeping would be beneficial given the small size of their
staff, which average to fewer than 10 staff.

The lack of effective written policies and procedures relating to terminating employees and the lack of
compliance with existing University requirements for accurately recording and reporting sick leave place
NSF funds at risk and may result in costs incurred that are not reasonable, allowable, and necessary for
the NSF award. NSF funds may not be properly accounted for and reported, and also may be subject to
mismanagement. A lack of segregation of duties with respect to payroll check distribution and reporting
of terminations allows for the possibility that an employee within the department charged with handling
and distributing payroll checks or with knowledge of the departing employees personal information could
continue receiving payments intended for the terminated employee. The potential lack of notification to
the Office of Human Resources could also allow for continued direct deposits to terminated employees’
bank accounts, as was detected during the audit.




                                                   33
Recommendation No. 3

We recommend that NSF’s Director of the Division of Institution and Award Support address and
resolve the following recommendations made to BU:

   a. develop written policies and procedures to address accounting for employee terminations and
      employee sick leave, and implement methods to ensure adherence to the approved policies and
      procedures.

   b. provide an appropriate segregation of duties by requiring an employee’s supervisor or another
      designated official independent of the payroll processing function to notify the Office of Human
      Resources when employment is being terminated. This will prevent the possibility that another
      employee in the department could continue receiving payments intended for the terminated
      employee, or that payments continue subsequent to termination.

   c.   Require that supervisors ensure that cumulative records of sick leave are maintained which will
        provide an auditable record within the accounting system to demonstrate compliance with
        University leave policies.

Awardee's Comments

The University disagrees with the assertion that existing policies and procedures for employee
termination and employee sick leave are inadequate.

Departmental personnel administrators are responsible for communicating personnel actions such as
terminations and leaves of absence to the Office of Human Resources and Payroll through the
University’s electronic “turnaround” form, a part of the H/R Payroll system. CISM’s turnarounds are
updated by the College of Arts and Sciences’ (CAS) Business Office.

The Office of Human Resources provides training to these administrators in the use of the turnaround
system and communicates with them regularly. The importance of timely notification of any change in
status is strongly emphasized during training; and personnel administrators are aware of the financial
and compliance consequences to the University, the department and to sponsors when notification of a
change in status is not made timely.

Additionally, it must be noted that CISM has adequate controls for monitoring grant activity that
allowed them to also identify the overpayment made to the terminated Senior Research Associate on
June 30, 2008. Specifically, on a monthly basis the Assistant Director prepares, reviews, and provides
the Principal Investigator with an analysis of expenses charged to his awards, including faculty and staff
effort. Preparation of this analysis includes a review of CISM’s encumbrance system that CISM uses to
assist in ensuring that employees are accurately paid.

Timing was a factor that led to the terminated employee’s self discovery of the overpayment.
Specifically, the Senior Research Associate ended his employment with the University on June 10,
2008. On July 2nd, two days after the payroll was deposited in the terminated employee’s account, he
informed CISM’s Assistant Director of his overpayment.




                                                   34
The Assistant Director of CISM provided a copy of the employee’s termination letter to College of Arts
and Sciences) Business Office to inform them of the termination in June to ensure that the turnaround
was appropriately updated. Unfortunately, the turnaround was not updated to reflect the employee’s
termination resulting in him being paid for the entire month of June. The Assistant Director contacted
the CAS Business Office who stated that they were unaware of the termination and that the Senior
Research Associate would need to reimburse the University which he promptly did in August.

As previously stated in this audit report, the University policy does require that supervisors maintain
complete and accurate records of sick leave accruals and usage for each employee under his or her
supervision. This is referenced not only in the Boston University Handbook, but also Human Resources
online Manager’s Toolkit. Unfortunately, this practice was not followed at CISM. Representatives
from Human Resources will work with CISM to provide additional guidance on this matter to assist with
compliance.

The University is implementing a new HR/Payroll system in July 2011 and January 2012 for nonexempt
and exempt employees, respectively. This new system will have increased functionality, assigning a
single designated time keeper role within each department and enhanced monitoring tools at both the
departmental and central level. In conjunction with the system implementation, the University is
updating its HR policies and plans to stress the responsibilities for handling sick time and terminations
as part of this policy update.

All users of the new HR/payroll system must take the online training programs designed for specific
roles such as time keeping, payroll, and purchasing. Upon completion of each training program, these
employees must also demonstrate proficiency in the use of the new system by taking and passing formal
online tests prior to receiving access privileges to use the system. New hires into positions requiring use
of the system must also take the training and pass the tests prior to being provided access privileges. The
training and test records will be maintained for each employee.


Auditors' Response

The actions BU states that it has taken to strengthen policies and procedures for the managing, recording
and reporting of employee sick leave are responsive to the finding and recommendation. However, the
University’s statement in its response that “Departmental personnel administrators are responsible for
communicating personnel actions such as terminations and leaves of absence to the Office of Human
Resources and Payroll” is (1) not consistent with statements made by the CISM departmental
administrator, (2) not documented in the Boston University policy statements provided during this audit,
and (3) illustrative of the very crux of this finding, which is that departmental personnel administrators
are also the individuals who initiate personnel and payroll transactions and receive payroll checks for
distribution (when direct deposit is not elected). To rely on these individuals to also advise Human
Resources of employee terminations is an inadequate segregation of duties. As stated in the finding,
there is no process or requirement in place requiring that someone independent of the payroll initiation
and distribution functions notify a party outside of the department where they work, such as the
University’s Office of Human Resources, when a non-student employee is terminated.




                                                    35
This finding should not be closed until NSF determines that the recommendation has been adequately
addressed and the proposed corrective actions have been satisfactorily implemented.

This report is intended solely for the information and use of the Trustees of Boston University’s
management, NSF, the University’s cognizant Federal audit agency, the Office of Management and
Budget, and the Congress of the United States, and is not intended to be and should not be used by
anyone other than these specified parties.



McBride, Lock & Associates
October 15, 2010




                                               36
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
                                                                                                         Schedule A

                                  The Trustees of Boston University
                           National Science Foundation Award No. ATM-0120950
                                         Schedule of Award Costs
                              Award Period: August 1, 2002 – July 31, 2012
                            Audit Period: August 1, 2002 – December 31, 2009
                                                  Interim

                                                                                            Claimed         Questioned
                                      Approved             (A)
         Cost Category                                                                     Costs After        Costs
                                       Budget        Claimed   Costs      Adjustments
                                                                                           Adjustments      Schedule B
Direct Costs:
 Salaries and wages               $     3,231,009    $       2,891,836    $        -       $    2,891,836   $         -
 Fringe benefits                          713,158              657,707                 -          657,707             -
 Equipment                                438,210              391,235                 -          391,235             -
 Travel                                   322,876              341,659                 -          341,659             -
 Participant support                      388,451              290,186                 -          290,186             -
Other direct costs:                                                                                                   -
 Materials and supplies                    27,932               30,325                 -           30,325             -
 Publication costs                         43,954               37,872                 -           37,872             -
 Consultant services                       18,000                    -                 -                -             -
 Computer services                         22,495               50,988                 -           50,988             -
 Subcontracts                          24,093,087           19,997,158                 -       19,997,158       412,400
 Other                                    209,360              311,248                 -          311,248             -
 Residual funds (B)                       (89,451)                   -                 -                -             -
Total Direct Costs                $    29,419,081    $      25,000,214    $        -       $   25,000,214   $   412,400
Indirect Costs                                                                         -                              -
Total                                                $                    $            -                    $   412,400


Cost sharing to June 30, 2009     $     7,908,358    $       8,713,453    $        -       $    8,713,453   $   174,397




    (A) The total claimed costs agree with the total expenditures reported by TBU on the Federal Financial Report –
          Federal Share of Net Disbursements as of the quarter ended December 31, 2009. Claimed costs reported
                                  above are taken directly from TBU’s books of accounts.

    (B) The Residual funds category is to be used only for budgets for incremental funding requests on continuing
        grants.

                                  See Accompanying Notes to the Financial Schedule

                                                          38
                                                                                           Schedule B
The Trustees of Boston University
National Science Foundation Award No. ATM-0120950
Schedule of Questioned Costs
From August 1, 2002 to December 31, 2009

Subcontracts – Questioned Costs of $412,400

All costs questioned pursuant to this audit were costs claimed by subawardees and reimbursed by TBU.
These questioned costs were charged by the University of Colorado University Corporation for
Atmospheric Research (UCAR), University of Colorado at Boulder (CU-Boulder) and Dartmouth
University, and consist of the following:
                                                                      Questioned       Questioned
                                                                         Costs         Cost Share
University Corporation for Atmospheric Research (UCAR)
1.   Bond principal payments charged as depreciation on a computer
     without basis for allocation to award                               $    60,000   $          -
2.   Interest Costs on bond payment                                            4,645              -
3.   Direct charging of indirect costs such as telephone, postage and
     Federal Express charges                                                  11,603              -
4.   Gifts to workshop participants such as tote bags, calculators and
     mouse pads                                                                3,491              -
5.   Spanish translation of web site allocated 50% to CISM                     4,556              -
6.   Foreign worker visa application fee                                         500              -
7.   Management fee (not approved by NSF)                                    143,165              -
8.   Foreign travel (not approved by NSF)                                     28,698              -
9.   Vendor discounts offered to workshop participants on books,
     software and site licenses, claimed as cost share                             -        157,226
                                                                         $   256,658   $    157,226

University of Colorado at Boulder (CU-Boulder)
1.   Foreign travel incurred without advance approval                    $    71,787   $          -
2.   Moving expenses from London to Boulder for staff                          6,000              -
     Consultant charges exceeding allowable rate and absence of
3.   expense documentation                                                    25,624         17,171
4.   Incorrect base salary charged for Principal Investigator                  4,172              -
5.   Payroll costs charged without certified effort reports                   13,333              -
6.   Direct charging of indirect costs                                           673              -
                                                                         $   121,589   $     17,171
Dartmouth
1.   Payroll costs charged without certified effort report               $    34,153   $          -
Total questioned costs and questioned cost share                         $   412,400   $    174,397



                                                       39
                                                                                            Schedule B
Cost Share - Questioned Costs of $174,397

The $174,397 of questioned cost sharing represents costs that have been claimed as cost share which are
not allowable costs pursuant to federal cost principles. The questioned cost sharing amounts are further
discussed in Schedule C.




                                                  40
                                                                                              Schedule C
                            Th e T rus tees of B os ton Uni vers ity
                 National Science Foundation Award Number ATM-0120950
                                    Schedule of Cost Sharing
                     For the period from August 1, 2002 to December 31, 2009



            Cost             Cost              (A)              Actual              (B)
           Sharing          Sharing         Questioned       Accepted Cost        At Risk
          Required          Claimed         Cost Share           Share           Cost Share

      $    7,908,358    $   8,713,453      $    174,397      $   8,539,056           NA

(A)   Questioned cost share consists of the following:

      1. Vendor discounts of $157,226 were improperly claimed as cost sharing by subrecipients.
         UCAR claimed as cost share the vendor discounts offered to conference participants,
         primarily school district personnel, for books, software and software licenses. The vendors
         provided discounts of approximately 40% to 50% off of the retail price of the software and
         licenses, and also assigned a value to time spent by employees of the software company
         attending and instructing conference participants in the use of the company’s software. Note
         that accepted cost share of $8,556,227 which takes into consideration the questioned cost
         share, exceeds the cost sharing requirement of $7,908,358.

      2. Consultant costs of $42,795 were charged at rates exceeding the allowable amount governed
         by the maximum rate paid to an Executive Schedule Level IV Federal employee (exclusive
         of indirect cost, travel, per diem, clerical services, fringe benefits and supplies), and without
         documentation to support the consultant’s expenses. Total consultant costs charged ($42,795)
         were questioned; $25,624 was questioned as a direct charge to the award and $17,171 was
         questioned as cost share. This item is discussed further in Finding 1.


(B)   At Risk Cost Sharing is the amount of required cost sharing that has not been met at the time of
      the audit, but which the awardee still has time to meet before the end of the award period.




                                                  41
                                                                                                           Schedule D
                                  T h e T ru s tees of B os ton Un i vers i ty
                                        National Science Foundation
                                       Award Number ATM-0120950
                           Summary Schedules of Awards Audited and Audit Results
                            Period from August 1, 2002 through December 31, 2009

    Summary of Awards Audited

    Award Number                     Award Period                                   Audit Period
      ATM-0120950            August 1, 2002 – July 31, 2012              August 1, 2002 – December 31, 2009


     Type of Award                                         Award Description
  Cooperative Agreement   ATM-0120950 is a cooperative agreement awarded to TBU for a Science and
                          Technology Center - the Center for Integrated Space Weather Modeling (CISM)).
                          The goal of this Center is to develop computer models that can predict space weather
                          from the surface of the sun to the Earth’s surface and, ultimately, to better protect the
                          US technological systems that are affected by conditions in the space environment.

Summary of Questioned, Unresolved, and Unsupported Costs by Award

                                                                   (A)              (A)
                        Non-        Internal     Material,      Amount of      Amount of        Amount of      Amount of
                     Compliance     Control     Significant     Questioned     Questioned        Claimed      Unsupported
      Finding          and/or       Finding      or Other?        Costs        Cost Share         Costs          Costs
                      Internal                                   Affected       Affected         Affected     Questioned
                      Control

1. Lack of              Non-           Yes      Significant     $ 412,400       $    -        $19,997,158         $47,486
   adequate fiscal   compliance                 Deficiency
   monitoring of     and Internal
   subawardees         Control


2. Cost share           Non-           Yes      Significant     $    -          $ 174,397     $ 8,713,453         $   -
   commitments       compliance                 Deficiency
   are not           and Internal
   adequately          Control
   monitored,
   accounted for
   or reported

3. Inadequate           Non-           Yes      Significant      $   -          $    -         $ 5,785,755        $   -
   monitoring of     compliance                 Deficiency
   employee          and Internal
   terminations        Control
   and accrued
   sick leave is
   inadequate

    Note (A): $174,397 of questioned cost share was claimed by subawardees and is relevant to both
    findings 1 and 2. The amount is presented in the above schedule as a component of Finding 2 –
    Lack of Adequate System to Record and Monitor Cost Share.


                                                           42
                                The Trustees of Boston University
                                 Notes to the Financial Schedules
                              From August 1, 2002 to December 31, 2009

Note 1: Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions, which are based on a comprehensive basis of accounting other than
generally accepted accounting principles. Schedule A-1 has been prepared by the Trustees of Boston
University from the Federal Financial Reports submitted to NSF and TBU’s accounting records. The
basis of accounting utilized in preparation of these reports differs from generally accepted accounting
principles. The following information summarizes these differences:

A. Equity
   Under the terms of the award, all funds not expended according to the award agreement and budget
   at the end of the award period are to be returned to NSF. Therefore, the awardee does not retain
   equity in the award and any excess cash received from NSF over final expenditures is due back to
   NSF.

B. Equipment
   Equipment is charged to expense in the period during which it is purchased instead of being
   recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
   the Schedule of Award Costs include the cost of equipment purchased during the period rather than
   a provision for depreciation.

    Except for awards with nonstandard terms and conditions, title to equipment under NSF awards vests
    in the recipient, for use in the project or program for which it was acquired, as long as it is needed.
    The recipient may not encumber the property without approval of the federal awarding agency, but
    may use the equipment for its other federally sponsored activities, when it is no longer needed for the
    original project.

C. Inventory
   Minor materials and supplies are charged to expense during the period of purchase. As a result, no
   inventory is recognized for these items in the financial schedules.

D. Income Taxes
   The University is a component unit of the State of Massachusetts and is exempt from income taxes
   under Section 115 of the Internal Revenue Code. It is also exempt from State of Massachusetts
   income taxes.

The departure from generally accepted accounting principles allows NSF to properly monitor and track
actual expenditures incurred by the awardee. The departure does not constitute a material weakness in
internal controls.




                                                   43
                                  The Trustees of Boston University
                                     Notes to the Financial Schedules
                                 From August 1, 2002 to December 31, 2009

Note 2: NSF Cost Sharing and Matching

The University is required by the award terms to provide cost share equal to 30% of NSF-funded costs.
Below are the cost share requirements and actual cost share as of July 31, 2009, the most recent date for
which cost share was certified by the University and its subawardees:

    Award              Cost              Cost        Unallowable          Net              Share
   Number              Share             Share          Cost             Cost         Over/(Under)
   0120950            Required          Claimed        Share             Share            Required
     Total         $ 7,908,358       $ 8,713,453    $    174,397      $ 8,539,056     $     630,698


Note 3: Indirect Cost Rates

       The University’s indirect cost rate is negotiated with the Department of Health and Human
       Services. The rate is a final rate which is applied to modified total direct costs. The indirect cost
       rate applied to award ATM-012095 was as follows:

               Year              Rate

               FY 03
               FY 04
               FY 05
               FY 06
               FY 07
               FY 08
               FY 09




                                                    44
APPENDIX A – STATUS OF PRIOR REVIEW
              FINDINGS
                                                                                                      Appendix A
                                        Status of Prior Review Findings


In June of 2005, NSF made a site visit to TBU to evaluate policies and procedures for charging indirect
costs and monitoring subawardees of the Center award. The site visit identified weaknesses in TBU’s
fiscal and administrative functions, as described below. The findings, recommendations and current
status are set forth in the following table.


                Finding                                Recommendation                             Status


 1. The frequency of effort reporting       The University should obtain written         The University’s
    was less than that stated in OMB        approval of its alternate effort reporting   cognizant agency has
    Circular A-21                           schedule with its cognizant Federal          approved the effort
                                            agency.                                      reporting schedule.


 2. The subaward budget provided           The University should ensure that             Subaward charges for
    funds for gifts, which are not         subawardee payments are made                  gifts were noted during
    eligible for reimbursement from        consistently with Federal cost principles,    this audit. These gift
    Federal funds.                         are properly classified on sub-awardee        items were in the form
                                           ledgers and that indirect costs are           of calculators, tote bags
                                           charged appropriately.                        and mouse pads given to
                                                                                         workshop participants
                                                                                         (see finding 1).




                                                        46
                                  Appendix B




APPENDIX B – AWARDEE’S COMMENTS
            TO REPORT
       HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL


            Internet
          www.oig.nsf.gov


           Email Hotline
           oig@nsf.gov


             Telephone
            703-292-7100


    Toll-Free Anonymous Hotline
           1-800-428-2189


                Fax
            703-292-9158


                Mail
    Office of Inspector General
    National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 52
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

           Email Hotline
           oig@nsf.gov

             Telephone
           703-292-7100



             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 67
